mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

January 29, 2021
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Houston Community College System v. Wilson, No. 20-804

Dear Mr. Harris:
I represent respondent in this case. The petition for a writ of certiorari was filed on
December 11, 2020 and docketed on December 14, 2020. The due date for respondent’s brief in
opposition has been extended once and is presently February 12, 2021.
Pursuant to Rule 30.4, I respectfully request a 38-day extension of time within which to
file a brief in opposition, to and including Monday, March 22, 2021. The extension is necessary
in light of the press of other business, including proximate due dates in the Fourth Circuit and
D.C. Court of Appeals and oral arguments in the New York Supreme Court Appellate Division
and the Fourth and Tenth Circuits.
Petitioner consents to the requested extension.
Thank you for your attention to this matter.

Sincerely,

cc: counsel for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

